No. 21IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL ANTHONY CARROLL
Petitioner,
v.
STATE OF MICHIGAN,
Respondent.

PETITIONER'S APPENDIX

BY:

Michael A. Carroll #149733
Petianer In Pro Se
Saginaw Correctional Facility
9625 Pierce Road - MDOC
Freeland, Michigan 48623

TABLE OF CONTENTS

APPENDIX A — Order of the Michigan Supreme Court in Michigan v. Carroll,
2021 Mich. LEXIS 245 (Mar. 2, 2021), Reconsideration denied
APPENDIX B — Order of the Michigan Supreme Court in Michigan v. Carroll,
2020 Mich. LEXIS 2064 (Nov. 24, 2020), App. Lv. Appeal denied
APPENDIX C - Order of the Michigan Court of Appeals in Michigan v. Carroll
2020 Mich. App. LEXIS 1856 (Mar. 11, 2020) Lv. Appeal denied
APPHSIDIX D - Order/Opinion of the Genesee Cty. Cir. Ct. in Michigan v. Carroll
Case No. 82-31970-FC, on Relief from Judgment (2nd MRJ, Aug.
8, 2019, denied, Evidentiary Hearing denied (Aug. 8, 2019)
APPENDIX E - Motion for Relief from Judgment in Michigan v. Carroll, Case
82-31970-FC submitted (1/23/18)
APPENDIX F - Manorandum of Law in Support of Motion for Relief from Judgment
in Michigan v. Carroll, Case No. 82-31970-FC (1/23/18) 39 pages
APPENDIX G - Motion for Evidentiary Hearing in Michigan v. Carroll, Case
No. 82-31970-FC (1/23/18) 9 pages
APPENDIX H - Motion for Leave to Amend/Supplement Defendant's Motion for
Relief from Judgment in Michigan v. Carroll, Case No. 82-31970-FC
submitted (9/4/18) 6 page w/ Exhibit I Jury Verdict Form
APPENDIX I - Excerpt Transcripts JT Vol I, 3/29, 83, p.48 MRJ Exhibit A
APPENDIX J - Excerpt Transcript ,JT Vol II, 3/30/83, p. 226 MRJ Exhibit B
APPENDIX K - Detainer for Michael A. Carroll dated 5/7/1982, 1 page as MRJ
Exhibit D
APPENDIX L - Temporary Custory Receipt of Prisoner Michael A. Carroll dated
9/23/1982 as MRJ Exhibit D
APPENDIX M - Excerpt Transcript Motion Hrg. 3/21/1983, pp. 3-12 MRJ Exhibit
E in Michigan v. Carroll, 82-31970-FC
APPENDIX N - Excerpt Transcript Adjournment Hrg. 2/4/83, pp. 3-5 MRJ Exhibit
F in Michigan v. Carroll
APPENDIX O - Defendant's Affidavit in Support of IAC Claims w/offer of Proof
as the Circuit court History of Complaint #3682-81, p. 20 as
MRJ Exhibit G in Michigan v. Carroll
APPENDIX P - Case Register of Action - Casa No. 82-31970-FC as MRJ Exhibit H
in Michigan v. Carroll

1

TABLE OF CONTENTS - (COOT,)
APPENDIX Q - JURY VERDICT FORM date 4/8/1983 p. 1 as MRJ Exhibit I in
Case No. 82-31970-FC, Michigan v. Carroll
APPENDIX R - IAD Form I (SAMPLE) as Offer of Proof Writ of Certiorari @10
Carroll v. Michigan
APPENDIX S - IAD Form II (SAMPLE) as Offer of Proof Writ of Certiorari @ 10
Carroll v. Michigan
APPENDIX T - People's Answer in Opposition to Defendant's Application for
Leave to Appeal [MISCT No. 129114] by APA Donald A. Kuebler
in Michigan v. Carroll, MICOA No. 259113; Cir. Ct. No. 32-31970FC - Excerpt Brief pp. 8-14 as Offer of Proof for Writ of
Certiorari @ 26
APPENDIX U - Appellant's Brief on Appeal of Rights [MICOA #74712 by Attorney
Earl Spuhler noting IAD claim but not raising claim on appeal
constitutiong IAC appellate counsel as Offer of Proof - Writ
Certiorari @ p. 27

2.

APPENDIX A
Order of the Michigan Supreme Court in Michigan v. Carroll,
2021 Mich* LEXIS 245 (Mar. 2, 2021), Reconsideration denied

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

March 2,2021

ChiefJustice

Brian KL Zahra

161295(21)

David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,
justices

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

SC: 161295
COA: 351741
Genesee CC: 82-031970-FC

v
MICHAEL ANTHONY CARROLL,
Defendant-Appellant.

On order of the Court, the motion for reconsideration of this Court’s November 24,
2020 order is considered, and it is DENIED, because we are not persuaded that
reconsideration of our previous order is warranted. MCR 7.311(G).

I, Laxiy S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
March 2,2021
b0222

Clerk

APPENDIX B
Order of the Michigan Supreme Court in Michigan v. Carroll, 2020
Mich* LEXIS 2064 (Nov. 24, 2020), App. Lv. Appeal denied

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

November 24, 2020

Chief Justice

David F. Viviano,

161295 & (18)

Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

SC: 161295
COA: 351741
Genesee CC: 82-031970-FC

v
MICHAEL ANTHONY CARROLL,
Defendant-Appellant.

On order of the Court, the motion for leave to amend supplement is GRANTED to
the extent that it adds additional arguments, but is DENIED in all other respects. The
application for leave to appeal the March 11, 2020 order of the Court of Appeals is
considered, and it is DENIED, because the defendant’s motion for relief from judgment is
prohibited by MCR 6.502(G).

1

i

&

bl 116

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
November 24, 2020
Clerk

Justices

I

APPENDIX C
Order of the Michigan Court of Appeals in Michigan v. Carroll, 2020
Mich. App. LEXIS 1856 (Mar- 11, 2020), Lv. Appeal denied

i

!

Court of Appeals, State of Michigan
ORDER

People of MI v Michael Anthony Carroll
Docket No.

351741

LC No.

82-031970-FC

Christopher M. Murray, Chief Judge, acting under MCR 7.203(F)(1), orders:
The Court orders that the motion to waive fees is GRANTED for this case only.
The motion to amend the delayed application is GRANTED.
The delayed application for leave to appeal is DISMISSED. Defendant has failed to
demonstrate his entitlement to an application of any of the exceptions to the general rule that a movant
may not appeal the denial of a successive motion for relief from judgment. MCR 6.502(G).
The motion to remand is DISMISSED.

L/

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

u,

o

ITUF.llOKf

H

*

i »•>

i5.

9

°o

n

a;

(i
trsfTti

*

MAR 1 1 2020
Date

APPENDIX D
Ordar/Opinion of the Genesee Cty. Cir. Ct. in Michigan v. Carroll,
Case No. 82-31970-FC, on Relief from Judgment (2nd MRJ, Aug. 8, 2019),
denied; Evidentiary Hearing, denied (Aug. 8, 2019)

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF GENESEE

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,

CASE NO. 82-31970-FC
JUDGE JOSEPH J. FARAH

-vsMICHAEL A. CARROLL,

OPINION REGARDING MOTION
FOR RELIEF FROM JUDGMENT

Defendant.

At a session of said Court held in the City of Flint,
County of Genesee, State of Michigan on thte
______day of August, 2019.
PRESENT: HONORABLE JOSEPH J. FA1
Defendant Michael Carroll challenges his conviction and sentence for first
degree murder in a combined motion for relief from judgment. Together his motions raise
four claims of error he believes warrant relief. The Court will discuss each, albeit in a
different order than presented, devoting the time needed as related to the merits.
Carroll continues to claim the circuit court had no jurisdiction to try his case
because of a violation of MCL 780.601, the Interstate Agreement on Detainers. At
bottom Carroll’s claim is a speedy trial violation. However, this issue was previously
raised - and rejected - in a prior motion filed by counsel on Carroll’s behalf. His
repackaged
arguments,
based
on
everyone
involved
misunderstanding,
misapprehending, and misrepresenting the issue, makes his claim no better than it was
previously. No relief is warranted.
Carroll also claims that, basically, his trial was a nullity because his jury was
not sworn. No one can reasonably dispute that trial by an unsworn jury is error warranting
reversal. See People v Allan, 299 Mich App 205 (2013); Iv denied 494 Mich 863 (2013).
Yet this is not Carroll’s precise argument, nor can it be because the record indicates:
THE COURT: Miss Lazzio, are the People satisfied with the jury?
MS. LAZZIO: Yes, we are, Judge.
THE COURT: Mr. Siegel, are you satisfied with the jury?
MR. SIEGEL: We are satisfied, Judge.

THE COURT: Ladies and gentlemen, I will ask that, you rise and raise your
right-hands to be sworn by the clerk. (Whereupon the jury was sworn by the
clerk.)
Those of you who were not selected on this jury should return to the fourth
floor jury room. Thank you.
As can be gleaned from review of the record, the jury was sworn and Carroll’s claim to the
contrary quickly loses altitude. The Court will regard Carroll’s challenge as one to the
sufficiency of the oath.
The analysis begins with recognizing no particular oath is required so long as
what is presented instills in the jury the solemnity and weightiness of its task. Giving the
wrong oath may not be reversible error. See People v Cain, 498 Mich 108 (2015).
The instant record is indistinguishable from the record in People v
Kleehammer, Court of Appeals No. 289570, unpublished opinion1 of the Court of Appeals
released January 26, 2010. At the conclusion of jury selection, the following occurred:
THE COURT: Would you please swear the jury to hear the case.
All stand to take the oath of the jurors.
(9:28 a.m. - jury sworn)
Like in Kleehammer, Carroll has no support on his claim the jury was not
sworn, nor insufficiently sworn, nor that the record supports either position. Defendant
cannot show plain error concerning the trial court’s actions in having the prospective
jurors, and the jury, sworn prior to trial.
Carroll’s next issue warrants fuller discussion. He maintains his jury verdict
form limited the jury’s options to the point that he could not receive a favorable verdict.
Accordingly, he contends, a new trial is warranted.
As a threshold matter, the Court observes that the jury verdict form is part of
jury instructions. People v Garcia, 448 Mich 442, 483-484 (1995). Moreover, the
criminally accused is entitled to. a properly instructed jury. People v Hawthorne, 474 Mich
174, 182 (2006). Axiomatically, therefore, the accused is entitled to a properly formulated
jury verdict form. Michigan’s appellate courts have frequently addressed the sufficiency
of a jury verdict form, especially of late. The decisions specifically address the_precise
shortcomings in those verdict forms and grant - or deny relief - accordingly. The Court
believes it is likely most prudent to start with Carrol's verdict form and juxtapose it with
those in the applicable cases.
As a backdrop, the Court observes that the trial judge instructed the jury on
the possible verdicts as follows:

1 This Court recognizes that unpublished opinions of the Court of Appeals are not binding but may be
considered. MCR 7.215.
2

THE COURT: There are ten possible verdicts in this case. When you have
agreed upon a verdict, the foreperson should mark that verdict on the verdict
form that will be given to you and notify the Court officer. The possible
verdicts are as follows:
No guilty, guilty of first degree murder, guilty of second degree murder, guilty
of involuntary manslaughter, guilty of assault with intent to rob armed, guilty
of assault with intent to rob unarmed, guilty of attempted armed robbery,
guilty of attempted unarmed robbery, guilty of attempted larceny from the
person, guilty of negligent use of a firearm.
THE COURT: People satisfied with the instructions as given?
MISSLAZZIO: We are satisfied.
THE COURT: Mr. Siegel, is that correct?
MR. SIEGEL: Yes, we are satisfied. That is correct.
The verdict form correspondingly indicates:
POSSIBLE VERDICTS:
You may return only one verdict on this charge. Mark only one box on this
sheet.
Not Guilty
Guilty of First Degree Murder
Guilty of Second Degree Murder
Guilty of Involuntary Manslaughter
Guilty of Assault with Intent to Rob Armed
Guilty of Assault with Intent to Rob Unarmed
Guilty of Attempted Armed Robbery
Guilty of Attempted Unarmed Robbery
Guilty of Attempted Larceny from the Person
Guilty of Negligent Use of a Firearm
The Court begins its analysis of the issue by establishing the framework for review of
Carrol’s claims. Because any error was not preserved (indeed trial counsel expressed
satisfaction), clear error must be established to warrant relief. Additionally, no post­
conviction effort nor post appeal endeavor addressed the error claimed now.
Nevertheless, this Court will consider it, albeit under the restrictive standard.
Reading the applicable cases harmoniously renders the conclusion that a
verdict form is erroneous if it forestalls the possibility of a general verdict of not guilty2
and/or by its flow compels only a guilty verdict. Where a not guilty verdict is stated only
within a particular count and then not repeated in additional counts, a “general not guilty
verdict” is not stated. However, preservation of an accused’s right to a jury trial and a
2 See People v Wade, 283 Mich App 462, 467 (2009).

3

corresponding properly instructed jury through a proper jury verdict form is not
accomplished by one type of verdict form. The test is whether sufficient opportunity was
given to the jury to acquit the accused.
Verdict forms were found wanting in People v Grondin III, Court of Appeals
No. 331809, unpublished, Mich App June 12, 2018, relying on People v Wade, 283 Mich
App 462, 464 (2009). However, in each of those cases, the not guilty option was either
subsumed under a particular count and not repeated regarding a lesser offense or not
stated generally unconnected to a particular count on the verdict form.
The shortcoming claimed by Carroll on his verdict form cannot be squared
with the applicable precedents. His verdict form contained a separate, unconnected to or
subsumed in any particular count, not guilty option. It stood separate and apart and atop
any verdict of guilty for any crime. Carroll's jury was given ample opportunity and ability to
acquit him. While another verdict form - one listing an option of not guilty for each of the
numerous charges — would have been a legitimate option,3 the selection of a verdict form
listing a not guilty option standing apart - and agreed to by counsel4 cannot be deemed
clear error. No relief is warranted.
____
Having disposed of all of Carroll’s claig
counsel’s ineffectiveness additionally precludes-r^Iief!

Tnst hirftxany related claim of

IT IS SO ORDERED.

JOSEP
i

Date

3 See People v Muhammad, Court of Appeals No. 301944, unpublished, Mich App June 28, 2012.
4 See People v Robinson, Court of Appeals No. 342261, unpublished, Mich App May 9, 2019.

4

APPENDIX E
Motion foe Relief from Judgment in Michigan v. Carroll/ Case No.
82-31970-FC submitted (1/23/2018)

i

;
>

;
:

A'«
*'

/
V

STATE OF MICHIGAN

IN THE CIRCUIT COURT FOR THE COUNTY OF GENESEE

PEOPLE OF THE STATE OF MICHIGAN,
Case No. B2-031970-FC

Plaintiff,

Hon. Joseph J. Farah

v.
MICHAEL ANTHONY CARROLL #149733,
Defendant In Pro Per.
Genesee County Prosecutor
Attorney for the Plaintiff

MOTION FOR RELIEF FROM JUDGMENT
NQIil COMES, Michael A. Carroll, MDGC No. 149733, and moves this Memorable
Court for Relief from Judgment pursuant to HCR 6.5Q0 et seq •» and the following
reason in support:
\.i On May 7, 19B2, while serving a 20 year sentence in the State of Arkansas,
Defendant was served with a detainer on a pending charge of murder in the State
of Michigan, County of Genesee.
2.

On September 23, 1902, temporary custody was turned over to two City of

Flint Detectives to bring defendant to the jurisdiction of Michigan.
3. On September 24, 1982, Defendant Carroll was surrendered to the sustody
of the Genesee County Sherriff's Department and lodged in the Genesee County Jail.
4.

On September 29, 1982, Defendant was arraigned in th e68th District Court

for the City of Flint.
5.

On September 3D, 1982, Joseph E. Baessler P23968 was appointed as counsel

for defendant.

1.

6. On March 21, 1983, Attorney Kenneth M. Siegel P20431 made an appearance
as retained counsel for defendant and moved the trial court for an aorder of
substitution for Attorney Joseph E. Baessler. The order was later granted on
the first day of defendant's trial.
7. On March 29, 1903, Defendant's trial began - Attorney Joseph E. Baessler
granted a withdrawal as court appointed counsel.
8.

On April 8, 1983, Defendant's jury found him guilty of 1st Degree Murder.

9. On April 21, 1983, the Honorable Robert N. Ransom sentenced Defendant to
LIFE w/o parole on the murder, with 211 days credit for time spent in custody.
10. Defendant timely filed a notice of appeal as of right and appointment of
appellate counsel.
\

11.

On June 8, 1983, Charltess A. Grossman was appointed as appellate counsel.

12. On September 19, $983, an order was filed for substitution of counsel Earl Spuhler for Charles A. Grossman.
13.

On July 16, 1984, while defendant Carroll was serving the remainder of
his sentence in the State of Arkansas, Attorney Spuhler filed defendant's brief
on appeal in the Michigan Court of Appeals. Although, Attorney Spuhler identified
an IAB issue in defendant's case in the Statement of Facts, counsel did not
raise any IAD issues or claims of ineffective assistance of counsel(s).
14. On December 3, 1985, the Court of Appeals affirmed defendant's conviction
and §en*P!£g%-;.

2.

15.

Defendant by-and-through Attorney Earl Spuhler timely filed Defendant's
Leave to Appeal the Michigan Court of Appeals' opinion affirming conviction.
On June 6, 1986, the Michigan Supreme Court denied the Application for Leave
to Appeal.
16.

In 1987, Defendant C&rroll was returned to the State of Michigan onma
detainer after serving his term of imprisonment in the State of Arkansas.
17.

On February 28, 20D1, defendant through retained counsel Angela D. Collette
filed a Motion for Relief from Judgment.
18.

On November 17, 2003, the trial court denied the Motion for Relief from
Judgment.
19.

Defendant through retained counsel Michael Skinner filed a Delayed

Application for Leave to Appeal in the Michigan Court of Appeals, which uias
subsequently denied on June 28, 2005.
20. On December 6, 2005, the Michigan Supreme C6urt issued an order directing
the Genesee County Prosecutor to answer defendant's application for leave to
appeal on the 120 day rule of the IAD.
21.

On December 27, 2005, the People answered in Opposition for Leave to Appeal
citing that defendant waived his 180 Speedy Trial and therefore subsequently waived
his 120 rule claims, (emphasis added).
22.

Defendant now asserts that his case was wrongly decided on the facts and

laws that were misapplied and/or misrepresented to him by the assigned counsel,
retained counsel, prosecutor and the trial court contrary to the state and federal
constitutions guarantees to Due Process of Law and guarantees to effective
assistance of trial and appellate counsels. U5CA AMS V, VI, XIV.

3.

23. Defendant is entitled to relief from Judgment and a neuttrial for the
following grounds establishing "actual prejudice", and "cause" as more fully
argued in the attached Memorandum of Law in Support:
A.

DEFENDANT IS ENTITLED TO RELIEF FROM JUDGMENT WHERE THE TRIAL RECORD
IS ABSENT OF THE VERBATIM SWEARING TO ENPANEL THE JURY; THE FAILURE
TO PROPERLY SWEAR THE JURY CONSTITUTEBDA VOID JUDGMENT AND IS COGNIZABLE
FDR RELIEF PURSUANT TO MCR 6.508(D)(3), AS A JURISDICTIONAL DEFECT.
U.S. CONST. AMS VI, XIV.

B.

DEFENDANT IS ENTITLED TO RELIEF FROM JUDGMENT WHERE THE TRIAL COURT
COMMITTED AN ERROR OF LAW CONTRARY TO MCL 780.601, ARTICLE III, WHERE
IT FAILED TO TOLL WHETHER 1 BO DAYS HAD ELAPSED FOR DISMISSAL UNDER THE
IAD; THE TRIAL COURT ERRED AS A MATTER OF LAW WHERE IT ADVISED THE
DEFENDANT TO WAIVE HIS SPEEDY TRIAL BY CITING AN INAPPLICABLE 1B0 DAY
RULE; DEFENDANT'S WAIVER IS VOID SINCE IT WAS ACCEPTED UNDER MISADVICE
OF LAW; ALTERNATIVELY, TRIAL AND APPELLATE COUNSELS WERE CONSTITUTIONALLY
INEFFECTIVE FOR FAILURE TO KNOW AND RESEARCH THE LAWS APPLICABLE TO
DEFENDANT'S CASE AND ASSERT THEM IN A TIMELY AND CORRECT MANNER;
DEFENDANT'S CONVICTION AND SENTENCE SHOULD BE SET ASIDE AS TIME BARRED
UNDER THE PROVISIONS OF THE IAD. US CONST. VI, XIV.

C.

THE CUMULATIVE EFFECT OF TRIAL ERRORS DENIED DEFENDANT DUE PROCESS,
WHERE THE TRIAL RECORD SUPPORTS FUNDAMENTAL UNFAIRNESS AND UNRELIABLE
RESULTS; AND, DUE PR0CEE5 OF LAW WAS DENIED BY THE CUMULATIVE EFFECT
OF TRIAL COUNSELS ERRORS CONTRARY TO THE STRICKLAND STANDARD. US CONST.
AMS V, VI, XIV.

24. These issues could have been raised on appeal, MCR 6.508(D)(3), but
defendant submits that he is entitled to relief because he had good cause for
failure to properly raise these issues on appeal, MCR 6.508(D)(3)(a); namely,
ineffective assistance of appellate counsel. See e.g., People v. Reed, 449 Mich
375 (1995); People v. hardauay, 459 Mich B7B (1998); People v. Kimble, 470 Mich
305 (2004).
25. The factual and legal basis behind each o'ffthese claims is set forth in the
accompanying Memorandum of Law. Defendant submits thathe has demonstrated "actual
prejudice" in that but for the alleged errors, he would have had a reasonably likely
chance of acquittal. MCR 6.50B(D)(b)(i).

4.

RELIEF REQUEST
Far these reasons and those set forth in the accompanying Memorandum of Law,
Defendant Michael A. Carroll asks that this Court grant relief fromjudgment and
set aside or modify the judgment inrthis case, or alternatively, order a
Ginther hearing pursuant to People v. Ginther, 39D Mich 436 (1973) on the claims
of IAC of both trial and appellate counsels, or relief this Court may deem
approrpiate to avoid a Miscarriage of Justice.

Respectfully submitted,
/s/
DATE:

Michael A. Carroll #149733
Defendant In Pro Per
Saginaw Correctional Facility
9625 Pierce Road - MDOC
Freeland, Michigan 40623

/2Q18

5.

APPENDIX F
Memorandum of Law in Support of Motion for Relief from Judgment in
Michigan v. Carroll, Case No. 82-31970-FC (1/23/18) 39 pages

STATE QF MICHIGAN
IN THE CIRCUIT COURT FOR GENESEE COUNTY

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
v.
MICHAEL ANTHONY CARROLL, #149733,
Defendant In Pro Per. _____ _
Genesee County Prosecutor
Attorney for Plaintiff

MOTION FOR RELIEF FROM JUDGMENT
MCR 6.500 ET SEQ.

BY:

Michael A. Carroll #149733.
Saginaw Correctional Facility
9625 Pierce Road - MDOC
Freeland, Michigan 48623

02-031970-FC
Hon. Joseph J. Farah

TABLE OF CONTENT
ii
.Hi
1
5
10
30
34
35/:• /

STATEMENT OF JURISDICTION
QUESTIONS PRESENTED .......
STATEMENT OF FACTS ......
ISSUE I ...........................
ISSUE II .........................
ISSUE III .......................
CONCLUSION................
RELIEF REQUEST.................

35

PROOF OF SERVICE

i.

STATEMENT OF JURISDICTION
Defendant Michael A. Carroll contends that this Court has jurisdiction to
hear this matter pursuant to MCR 6.508(D)(3), where the claims presented
supports a "RADICAL JURISDICTIONAL DEFECT", which does not require a showing
of "GOOD CAUSE" or PREJUDICE". People v. Carpentier, 446 Mich 19 (1994).
A jurisdictional defect is therefore, always subject to collateral attack.
See Eduard v. Meinberg, 334 Mich 355 (1952).
Defendant further contends that since a failure to swear the jury nullifies
not only the jury, but also nullifies the sentence/judgment - This Court may
therefore hear this matter pursuant to MCR 6.50B(D)(3)(a) "ACTUAL INNOCENCE",
since the presumption of innocence does not disappear from a void judgment.
Taylor v. Kentucky, 436 US 478, 9B SCt 1930, 1933, 56 LEd2d 46B
See e.g. t ____
(197B)(holding that the "[Pjrinciple that there is a presumption of innocence
in favor of accused is undoubted law, axiomatic and elementary, and its
enforcement lies at foundation of administration of criminal law").
Jurisdiction is also found where Defendant can raise these claims as an
original Motion for Relief from Judgment where the rules of collateral
estoppel does not apply to any previous appeals of rights or collateral
proceedings, which are void ab inito based on the initial void judgment by
the failure to swear the jury in accordance with applicable State laws and
court rules.

ii.

QUESTIONS PRESENTED

I.

II.

IS DEFENDANT ENTITLED TO RELIEF FROM JUDGMENT brlERE THE TRIAL RECORD
IS ABSENT OF THE VERBATIM SWEARING TO ENPANEL THE JURY/?
DOES THE FAILURE TO PROPERLY SWEAR THE JURY CONSTITUTE A VOID JUDGMENT
AND IS IT COGNIZABLE FOR RELIEF PURSUANT TO MCR 6.508(D)(3), AS A
JURISDICTIONAL DEFECT?
IS DEFENDANT ENTITLED TO RELIEF FROM JUDGMENT WHERE THE TRIAL COURT
COMMITTED AN ERROR OF LAW CONTRARY TO MCL 780.601, ARTICLE III, WHERE
IT FAILED TO TOLL WHETHER 180 DAYS HAD ELAPSED FOR DISMISSAL UNDER THE
IAD?
DID THE TRIAL COURT ERR AS A MATTER OF LAW WHERE IT ADVISED THE DEFENDANT
TO WAIVE HIS SPEEDY TRIAL BY CITING AN INAPPLICABLE 1B0 DAY RULES?
IS DEFENDANT'S WAIVER VOID SEINCE IT WAS ACCEPTED UNDER MISADVICE OF LAW?
WERE TRIAL AND APPELLATE COUNSELS CONSTITUTIONALLY INEFFECTIVE FOR FAILURE
TO KNOW AND RESEARCH THE LAWS APPLICABLE TO DEFENDANT'S CASE AND ASSERT
THEM IN A TIMELY AND CORRECT MANNER?
SHOULD DEFENDANT'S CONVICTION AND SENTENCE BE SET ASIDE AS TIME BARRED
UNDER THE PROVISIONS OF THE IAD?

III.

DID THE CUMULATIVE EFFECT OF TRIAL ERRORS DENY DEFENDANT DUE PROCESS,
WHERE THE TRIAL RECORD SUPPORTS FUNDAMENTAL UNFAIRNESS AND UNRELIABLE
RESULTS?
WAS DEFENDANT DENIED DUE PROCESS OF LAW BY THE CUMULATIVE EFFECT OF
TRIAL COUNSELS' ERRORS CONTRARY TO THE STRICKLAND 5TANDARD?

"YES"
DEFENDANT WOULD ANSWER THESE QUESTIONS
.t nq »
PEOPLE WOULD ANSWER THESE QUESTIONS
THE TRIAL COURT HAS NOT ANSWERED THE QUESTIONS PRESENTED.

iii.

STATEMENT OF FACTS

In May of 1982, Defendant had been serving a 20 year sentence in the
State of Arkansas for Aggrevated Robbery.
On May 7, 1982, the Genesee County Prosecutor's Office filed a detainer
under the IAD with the Arkansas authorites on Defendant on charges Df murder
contrary to MCLA §750.316.
On September 23, 1982, the Flint Police Department assumed custody (Temp)
on Defendant pursuant the IAD detainer lodged by the Genesee County Prosecutor.
On September 24, 1982, the Flint Police Department delivered Defendant to
the custody of the Genesee County Sheriff's Department - Genesee County Jail.
On September 29, 1932, Defendant was arraigned in the 68th District Court
for the City of Flint and a plea of Not Guilty was entered by the court; the
Court advised Defendant of his right to counsel and Defendant filed for counsel
as an indigent person.
On September 30, 1982, by order of the Court Joseph E. Baessler P23968, was
appointed as counsel for Defendant.
On October 29, 1982, Defendant’s Preliminary Examination was held in the
6Bth District Court for City of Flint, MI; Defendant bound over on Complaint
and Felony Information. Arraignment in Circuit Court scheduled for November
8, 1962.

1.

STATEMENT DF FACTS
On November B 1982, Defendant was arraigned on the Felony Information in
Circuit. -Court. Trial was scheduled for February 4, 1983.
In Oanuary of 1983, Attorney Baessler visited Defendant at the Genesee County
3ail - (GC3), with an offer of 2nd Degree Murder. This plea did not have a
number of years. Defendant thereafter became suspicious since the alleged plea
informed his family to retain counsel on
was not reduced to writing. Defendant!
the belief that Baessler was not acting in the best interest of his client.
In February cf 1903, days before trial, Baessler visited defendant again to
inform him that he was not prepared for trial because his wife had been in the
defendant that he simply would move the court to
hospital. Counsel advised
adjourn the trial and a quick hearing would be held, There was no discussion
of defendant's Speedy Irial rights or rights under the IflD.
Dn February 4, 1983, counsel- moved the trial court for adjournment due to
his wife’s hospitalization . Counsel's alleged advice to waive Speedy Irial
since there was
was announced at the exact moment of the adjournment hearing
no previous conversation about Speedy Irial rights, waiver or 18Q days, to be
tried by any law or court rule, or the IAD . Defendant's understanding of the
Speedy Trial came from the simple explanation of the trial court, that the
180 days tolled from the time of arrest, The adjournment hearing make no
mention of the 180 days under the IAD, which, if had been tolled had expired
long before February 4, 1983.

2.

STATEMENT DF FACTS
In March of 1983, defendant's family retained Kenneth M. Siegel P20431, who
explained at the initial consultation his thoughts an the case. Defendant then
explained that he had been brought here from Arkansas where he had just started
serving a 20 year prison sentence for Aggrevated Robbery, Defendant informed
counsel that he had been in the 5tate of Michigan from Arkansas since 5ppteaber
24, 1982.
On March 21, 19B3, Attorney Siegel appeared with defendant in the Circuit Coartl
to move for a continuance to prepare for trial due to his recent appointment as
trial counsel. The trial court denied this motion and a discussion was held
about defendant's speedy trial rights, which, for the first time made the court
aware that defendant had been under the IAD - MCL 780.601. (MT, pp. 10-11).
The issue of the IAD was addressed by Attorney Siegel who cited the incorrect
dates for tolling under Article III, which applies to the 1B0 days. Counsel did
not move for tolling or dismissal since defendant had not waived any rights under
MCL 780.601, Articles III, IV. Per the record the State (APA LAzzio) denied
that a IAD violation of the 180 day had occurred. (10-11).
On March 29, 1983, defendant proceeded to trial and jury selection began.
The Court ordered the clerk to give the "Voir Dire" oath to the prospective
jurors. (0T Vol I, p- 48). The trial record reflects the transcribed record
of the verbatim voir dire oath. (48).
On March 30, T983, after the voir dire examination of jurors, the Court
order the swearing of the inpaneled jurors. The transcribed record only shows
"3L1RY 5U0RN". (3T II, p. 226).

The entire entry of the impaneling oath as

prescribed is absent from the trial record.

3.

STATEMENT OF FACTS
On April B, 1983, Defendant's trial concluded with the jury's findings of
guilty on the 1st Degree Murder charge.
On April 21, 19B3, defendant was sentenced to LIFE in prison for the
1st Degree Murder as mandated by statute. Defendant mas given credit for 211
days spent in custody prior to sentencing. Defendant noticed of right to appeal.
On Dune 6, 19B3, an order was entered appointing appellate counsel:
Charles A Grossman.
On September 19, 1983, an order mas filed for substitution of appellate
counsel:

Earl Spuhler for Charles A. Grossman.

On July 16, 19B4, Earl Spuhler filed defendant's appellate brief to the
Michigan Court of Appeals.
On November 26, 19B5, the Michigan Court of Appeals affirmed defendant's
conviction/sentence.
On December 12, 1985, Defendant filed leave to appeal mith the Michigan
Supreme Court.
On Dune 6, 19B6, the Michigan Supreme Court denied leave to appeal the
Court of Appeal's decision affirming conviction/sentence.
Defendant Carroll, nom contends that his conviction/sentence is void
where the trial court lost jurisdiction mhere the record is absent the
verbatim smearing oath on the inpaneling of the jury, Further, his case
should have been dismissed under the IAD for violations of both Articles
III, IV, MCL 780.601. That both his trial counsels and appellate counsel(s)
mhere ineffective for failure to knom the rules/lams of the IAD, and assert
the absolute defense of a time-barred offense,as more thoroughly argued in
the Memorandum of Lam in Support of Relief from Judgment.

4.

ISSUE I
DEFENDANT IS ENTITLED TO RELIEF FROM JUDGMENT WHERE THE TRIAL RECORD IS ABSENT
OF THE VERBATIM SWEARING TO ENPANEL THE JURY; THE FAILURE TO PROPERLY SWEAR THE
JURY CONSTITUTES A VOID JUDGMENT AND IS COGNIZABLE FOR RELIEF PURSUANT TO MCR
6.508(D)(3), AS A JURISDICTIONAL DEFECT. U.S. CONST. AMS VI, XIV.
STANDARD OF REVIEW: A trial court's conduct at trial is reviewed far an abuse
□f discretion. People v. Ramano, 181 Mich App 204, 220 (1969). The de novo
standard is applied to construing constitutional provisions, court rules and
statutes. 5eals v. Henry Ford Hoso.. 123 Mich App 329 (1983).
LEGAL ANALYSIS
The right to an impartial jury is applicable to the States via the Fourteenth
Amendment. Turner v, Louisiana. 379 US 466, 471-72 (1365). Further "due process
alone has long demanded that, if a jury is to provided the defendant, regardless
of whether the Sixth Amendment requires it, the jury must stand impartial and
indifferent to extent commanded by the Sixth Amendment”. Morgan v, Morgan, 5D4 US
719, 727 (1992).

/

In 1983, at the time of defendants jury trial - MCLA 768.14;MSA 28.1037 and
GCR 1963, 611.7 provided the rules / laws applicable to the oath to be administered
to jurors for trial of all criminal cases. Here, the jury impanelling oath is
absent from the trial transcripts.
In accordance with the law applicable at the time of defendant's trial and
conviction- People v. Pribble, 72 Mich App 219 (1976), an improperly and sworn
an inpaneled jury results in an invalid conviction. See e.g. Pribble, 72 Mich
App at 225: ”[I]t is apparent that had this trial proceeded to conclusion without
a properly impaneled and sworn jury, any resulting conviction would have been
invalid. Defendant would have had the right to have any conviction resulting from
a nonsworn-jury overturned on appeal”.

5.

Pribole

was the controlling law at the time of defendant’s appeal of right

and claim of leave to appeal with the Michigan Supreme Court, hut for appellate
counsel's ineffectiveness this calim would have been brought forth on the initial
appeal of rights.
DISCUSSION
In this case, Defendant contends that relief from judgment should be granted
where there is no verbatim record of the oath given to inpansl his jury pursuant
to statute - MCL 76B.14; MCR 6.412(F); MCR 8.108.
MCL 768.14 decrees that jurors in criminal cases be sworn to "well and
truly try, and true deliverance make, between the people of this state
and prisoner at bar, whom you shall have in charge, according to the
evidence and the laws of this state. .
MCL 768.15 in turn authorizes
use of secular affirmations, with reference to pains and penalties of
perjury, in place of religious language.
MCR 6.412(F) requires that jurors be sworn 11 [a]fter the jury is selected
and before trial begins".
MCR 8.10B(8)(1)(a) t- (e) decrees that: (t[T]he Court reporter end Recarder
[SHALL] attend the court session under the direction of the court and
take a verbatim record of the following:
(a) the voir dire of prosepective jurors
(b) the testimony
(c) the charge of the jury
(b) in a jury trial, the opening statements and final arguments
(e) the reasons given by the court from granting or refusing any motion
made by a party during the course of the trial.
Thus, it is BLACK LETTER LAW in Michigan that the failure to adminsiter an oath
or affirmation concerning the jurors' duties in decideing the case is of such
grave significance and is the sort of error that seriously affects the fairness,
integrity, or public reputation of the judicial proceedings. Thus, making this
claim ripe for review under MCR 6.50B(D)(b)(iii).

6.

ARGUMENT
In this case, defendant’s trial transcripts clearly indicate that there is
no verbatim swearing of the jury's impaneling oath contrary to MCLfl §768.14.
MCLA §768.14 provides:
The fallowing oath [shall] be administered to
the jurors far the trial af all criminal cases.
You shall well and truly try, and true
deliverance make, betwen the people of this
State and the prisoner at bar, whom you shall
have in charge, according to the evidence and
the laws of this State; so help you God. Mich.
Gen. Ct. R. 511.7 (1963) provides that the jury
shall be sworn by the clerk substantially as
follows: You and each of you do solemnly swear
(or affirm) that you will well and truly try
the issue discharged by the court, a true verdict
render; and that you will so solely on the
evidence introduced and with the instructions
of the Court; so help you God.
The failure to take a jury oath in substantially the form prescribed by law
renders all the proceedings invalid. It is essential, in the orderly procedure
in a case to be tried before a jury, that the jury be duly sworn, and the
failure in a criminal prosecution to swear the jury is regarded as a fatal
defect. See People v. Pribble, 72 Mich App at 225.
verbatim record of the
This Court should note that there is no evidence of a
oath, whether it was correctly given or the oath prescribed by law for
inpaneling.
Defendant contends that the fatal and/or radical defect is jurisdictional.
A radical defect in jurisdiction contemplates we think an act or omission
by States authorities that clearly contravenes an expressed legal requirement
at the time or act or omission. See People v. Price, 23 Mich App 663, 671 (1970).
See Fox v. Board of Regents, 375 Mich 238, 242-43 (1965).

7.

Further, since the oath for inpaneling was not transcribed, the Court
cannot assume that the alleged oath was properly given to confer the court with
jurisdiction tD proceed to try the defendant. Nothing is presumed in favor of
jurisdiction, it must he affirmatively shown. Spear v. carter, 1 Mich 19, 22
(1947). 5ee Ex parte Smith, 94 US 455, 456 (1876).
Qn March 29, 19B3, the Court ordered the clerk to give the "VOIR DIRE" oath
to the prospective jurors. (3T Vol I, p. 48) attached as Exhibit A. The oath
verbatim is shown in these transcripts.
On March 30, 1983, after voir dire examination the Court ordered the clerk
to swear the jury, but contrary to MCR 6.412(A)(F); MCLA 768.14, there is no
verbatim record of the oath given. See 3T Vol II, p. ,226 attached as Exhibit B.
The lack of this entry is evidence that the swearing by law did not in fact
take place. See e.g., Nicholson by Nicholson v. Children!s Hosp. of Michigan,
139 Mich App 434 (1984)(holding that a gap in the nurse1s notes regarding the
monitoring of an intravenenous tube supported an inference that such monitoring
did not take place). See also MCLA §600.2146
Defendant was denied Due Process of Law where the trial court did not keep
strictly within the limits of the law authorizing it tD take jurisdiction, and
to try the case, and to render judgment, The judgment is void and ripe to be
set aside and a new trial to be ordered. See e.g. Post v. United States, 161
US 583, 585 (1B96)(holding "[l]n all cases where life, or liberty is affected
by its proceedings, the Court must keep strictly within the limits of the law
authorizing it to take jurisdiction, and to try the case, and to render its
judgment. It cannot pass beyond those limits, in any essential requirement, in
either stage of those proceedings; and its authority in those particulars is
not enlarged by mere inferences from law, or doubtful construction of its term."
Uhen the court goes out of these limitaions, its actions to the extent of
excess is void).(citing In re Bonner, 151 US 242, 256 (1894))

8.

The absence of the inpaneling oath thereby created a jurisdictional defect
reviewable by this Court pursuant^ MCR 6.508(D)(3). Only jurisdictional defects
appearing on the face of the judgment may be attacked collaterally. Life Ins. Co»
v. Burton, 3D6 Mich 81 (1943).
CONCLUSION
In conclusion, this claim is not barred by time or prior efforts of appeal or
relief since a void judgment subsequently annuls the affirming of defendant's
conviction on appeal. Claims of jurisdictional defect are cogniziable on a
claim of relief from judgment, and "Good Cause" and "Prejudice" does not apply.
See People v. Carpentier, 446 Mich 19 (1994).
The Due Process clause of the Fourteenth Amendment obliges the 5tates to provide
meaningful backward-looking relief to rectify any unconstitutional deprivation.
See McKesson Corp. v. Div. of Alcoholic Bevs. & Tobacco, 496 US 18, 31 (1990).
The relief applicable to defendant's claim is that his conviction and sentence
be set aside and a new trial be ordered consistent with the laws in effect at
the time of his orginal trial and appeal of rights. In alternative, this Court
may conduct an evidentiary hearing pursuant tn MCR 6.508(C), on claims of IAC
of appellate counsel for failure to raise this issue on direct appeal or relief
this Court may deem appropriate, as this matter is over 30 years old, and to
retry defendant would result in ia. iscarriage of Justice".

T

9.

ISSUE II
DEFENDANT IS ENTITLED TO RELIEF FROM JUDGMENT WHERE THE TRIAL COURT COMMITTED
AN ERROR OF LAW CONTRARY TO MCL 780.601, ARTICLE III, WHERE IT FAILED TO TOLL
WHETHER 180 DAYS HAD ELAPSED FOR DISMISSAL UNDER THE IAD; THE TRIAL COURT ERRED
AS A MATTER OF LAW WHERE IT ADVISED THE DEFENDANT TO WAIVE HIS SPEEDY TRIAL BY
CITING AN IN APPLICABLE 180 DAYS RULE; DEFENDANT'S WAIVER IS VOID SINCE IT WAS
ACCEPTED UNDER MISADVICE OF THE LAW; ALTERNATIVELY, TRIAL AND APPELLATE COUNSELS
WHERE CONSTITUTIONALLY INEFFECTIVE FOR FAILURE TO KNOW AND RESEARCH THE LAWS
APPLICABLE TO DEFENDANT'S CASE AND ASSERT THEM IN A TIMELY AND CORRECT MANNER;
DEFENDANT'S CONVICTION AND SENTENCE SHOULD BE SET ASIDE AS TIME BARRED UNDER
THE PROVISIONS OF THE IAD. US CONST. AMS VI, XIV.
STANDARD OF REVIEW: The clearly erroneous standard applies to appellate review
__________________
of trial court's findings of fact. MCR 2.613(C). Factual findings are reviewed
for clear error, while the decision to waive or retain jurisdiction is subject
to an abuse of discretion standard. In re Fultz, 211 Mich App 299 (1995), rev
on other grounds and dep. 453 Mich 937^(1996) . Claims of ineffective assistance
of counsel are reviewed de novo. People v. Pickens, 446 Mich 298, 359 (1994);
Strickland v, Washington, 466 US 668* (1984).
LEGAL ANALYSIS
The purpose of the Interstate Agreement on Detainers (IADj is to encourage
expeditious disposition of charges and provide cooperative procedures among
States to facilitate such disposition. Interstate agreement of detainer Act,
§2, Arts, I, III, IV, V, VII, IX. IB U.S.C App. Stroble v. Anderson, 587 F2d 830
(6th Cir. 1978); MCL 7B0.601 Art. Ill, IV. .
Article III, provides that a prisoner can demand to be brought to trial
within 180 days on untried indictments, information or complaint which is the
basis for a detainer lodged against him. If the prisoner is not brought to
trial within 180 day-time limit, the appropriate court of the jurisdiction in
which the outstanding charge is pending is [required] to dismiss the charge
with prejudice. Stroble, 587 F2d at 835; MCL 780.601, Arts. Ill, V,

10.

Article III, thereby, creates a purely arithmetical excess over the number of
permissible days to indictment or trial and courts of jurisdiction are required
to toll days for dismissal, even without a request from a defendant. See Reed v,
Farley, 512 US 339, 370-71 (1994).
DISCUSSION
In this case, Defendant Carroll contends that his conviction and sentence
shouold be set aside as a matter of law, where the trial court failed to toll
the number of days under the IAD, Article III; where more than 180 days had
elapsed since the Genesee County Prosecutor had lodged a detainer against him.
On May 7, 1982, while serving a sentence in the State of Arkansas prison, the
Genesee County Prosecutor lodged a detainer on the Arkansas prison authorities.
5ee Detainer as Exhibit C.
On September 23, 19B2, a Temporary Custody form was filed on Defendant, when
two Flint Police Department detectives came to Arkansas, took custody of defendant
and transported him to the State of Michigan. See Temp. Custody Form - (9/23/82)

as Exhibit D.
On September 24, 19B2, Defendant was delivered to the State of Michigan. The
May 7, 1962 date of the detainer activated the 100 day provision of MCL 780.601,
Art. Ill and the September 23, 1982 date activated the 120 day provision of MCL
780.6Q1, Art. IV. In accordance with MCL 780.601, these articles are for all
purposes interdependent on each other for tolling purposes but exclusively
independent in their applications by reading and interpretation of law. Thus,
a Court "must hot be guided by a single sentence Dr member of a sentence, but
look to the provision of the whole law”. Gade v. National Solid lilaste Mgmt Assn,
505 US 86, 99 (1992); Peal v. United States, 5QB US 129, 132 (1993)(holding, "
accurate interpretation depends on parsing the structure and language of the
statute in the context in which it is used15).

11.

A defendant may waive either provisions of Article III and IV of the IAD
before their statutory expiration periods, but under the IAD there is no
provision in the statutory language that the defendant, his counsel or the
court of jurisdiction may waive an expired tolling period of the articles
outlined in MCL 780.601. □nee these articles have been past a violation of
IAD is cause for dismissal since the trial court loses its jurisdiction.
People v. Crawford, 147 Mich App 244, 252 (1985)(holding that a
See e.g. j _____
violation of the Interstate Agreement on Detainers, MCL 780.601;MSA 4.147(1)

the

jurisdiction, prosecutors and trial courts have an
attention to the statutory requirements).
A.

THE TRIAL COURT COMMITTED AN ERROR OF LAU) CONTRARY TO MCL 780.601, ART. IIlj_
WHERE IT FAILED TO TOLL WHETHER 180 DAYS HAD ELAP5ED FOR DISHI55AL UNDER THE
INTERSTATE AGREEMENT ON DETAINER.
An issue is preserved if it is raised before and addressed by the trial court.

See Steward v. Panek, 251 Mich App 546, 652 NW2d 232 (2002).
This issue is preserved where the issue was raised in open court by the
Genesee County Prosecutor at the Motion Hearing on 3/21/83,. anciimproperly ruled
on where no tolling under Article III of the IAD was performed and defendant had
not waived his IAD rights. See (MT, 3/21/B3, pp. 10-11) attached as Exhibit E.
On March 21, 1983, at a Motion Hearing Attorney Kenneth Siegel appeared as
Counsel move for adjorndefendant’s retained and substitued counsel.(MT *3).
ment on multiple grounds, and his recent appointment on March 18, 1983. (3-6).
The Prosecutor opposed defense motions on multiple grounds.(7-12).

12.

ftPA Lazzia placed the trial court on notice of the end of the court term,
which held a remaining two weeks and that the Court’s docket was very crowded
in April. (9). The prosecution was very aware of the 1B0 days for Speedy Trial
purposes /'where the record reflects her concern of four or five people in the
April term that were set for trial on violent, crimes. (9).
APA Lazzio placed the Court on notice that defendant was under the IAD for
the first time since her initial appearance as the prosecutor of the case. (10).

MISS LAZZIO:

Oudge, there is one other issue too, that Mr. Carroll is currently
an inmate I believe in the 5tate of Arkansas, and he is present in
the State of Michigan under the Uniform Detainer Act or something
of that nature, and according to that, we are bound to try him in
the hundred and eighty days, so there has to be a specific addressing
of that issue.

MR. SIEGEL:

If that’s the case, I think the hundred and eighty days have already
passed.

MISS LAZZIO:

They have not, Budge.

MR. SIEGEL:

Mr. Carroll informs me he thinks he got here September Z6th or 27th,
and he is willing to waive his right to trial within a hundred and
eighty days in any event.
Mr. Carroll informs me that when it was adjourned before, Mr. Beassler
requested, he already put on the record his agreement to waive the
hundred and eighty day requirement.

THE COURT:

Ulell, I remember him doing that, and I remember scheduling the case
for trial at that time, and the trial schedule was arranged to
accomodate this case. Mr. Siegel.
If I adjourn it again, I am going to, it?s going to have an affect
on a whole lot of other cases that have been scheduled as they
were because this trial was adjourned before.
How many witnesses do you have subpoenaed, Miss Lazzio.

(MT 3/21/83, pp. 10 11).

13.

The March 21, 19B3, motion hearing supports that the court did not ascertain
if the 1 BO days applicable to the IAD had actually expired. The court recalled
a waiver , but that waiver did not comport to the controlling law under the IAD.
See Adjournment Hearing, 2/4/B3, as Exhibit F. This waiver of the 180 days is
shown to have been a misrepresentation of the law, which caused an inducement
to waive his full rights of Speedy Trial, but this waiver was not applicable
where defendant had been under the constraints of the IAD. See MCL 760.601.
On February 4, 1983, an adjournment hearing was held where defense counsel
moved the court for an adjournment due to his wife's.recent hospitalization.
(Adj. Hrg *3). Defense counsel further informed the court that the setting of
the current February 4th trial date had been due to a conflict in the schedule
of the prosecutor which had been cleared up. (*3). The prosecutor, thereafter
informed the court that a continuance would cause a problem because there was
an issue with the 180 days in this case. ("4).
In this case, the language of the law as represented by the officers .of the
court, mislead defendant to believe the waiver as explained was applicable as
a reason to submit to a waiver, Yet, the waiver as shown is not the language
of MCL 780.601 et. seq., thus, the waiver was a misrepresentation of the IAD
provisions of MCL 780.601, art. 111(a). See Excerpt Transcripts 2/4/83 *5.
THE COURT:

Mr. Carroll, you understand you have a righitcto a speedy
trial which means you have a right to have your case tried
within a hundred and eighty days of the time of your arrest.

THE DEFENDANT:
THE COURT:

Yes, sir.

Do you understand if you ask to have the trial adjourned,
you would waive the right to a speedy trial?
Do you understand that?
Do you understand what X have said?

THE DEFENDANT:

Yes, sir.

(Adj. Hrg* 2/4/83 *5)

14.

Here none □f the players of the court, specifically, the court were abreast
of the rules/laws which' applied to the IAD. Thus, the judge sitting as factfinder, is presomed to possess an understanding of the law. In re Forfeiture
$15, 250, 209 Mich flpp 20, 31 (1994).
The court failed to employ the fundamental rule of statutory construction,
that when two statutes encompasses the same subject matter, one general and
the other specific, the latter will control. Const, art. 1, §2; US Const. Am XIV;
People v. Ford, 417 Mich 66, 79 (1982). Here, MCL 763.1 was the general statute
and MCL 780.601, art. 111(a) was the specific and controlling law applicable
to defendant's 180 day waiver.
Strictly speaking, the IAD applies, as the name suggest, OjCY to interstate
detainers. MCL 780.601, art. III(s)("[liflhenever a person has entered upon a
term of imprisonment in a . . . party state, and whenever during the continuance
of the term of imprisonment there is pending in any ather party state any . . .
. on which.a detainer has been lodged against the prisoner, he
indictment .
shall be brought to trial uiithin 1B0 days. .

(emphasis added).

A substantive mistake occurred where the court erred as a matter of law by
explaining to defendant that the 180 days for speedy trial purposes was started
bv the arrest of defendant. (Adj. Hrg *5). Under the IAD the 180 days starts
by the lodging of the detainer. MCL 780.601,art.IlX(a). Defendant’s detainer
was lodged on May 7, 1982.
A substantive mistake is a conclusion on decision that is erroneous, because
it is based on a mistaken belief in the facts or applicable law. See People
v. Pones, 203 Mich App 74, 60 (1983).
Had the court tolled the dates from May 7, 1982, to November 3, 1982, he
would have determined that the 180 days would have expired, or upon argument
of the
from the prosecutor of its receipt of the waiver of IAd for IAD purposes
tolling. An evidentiary hearing is mandatary under MCR 6.503(C) to resolve
claim of defendant's waiver under a mistaken belief of law.

15.

B.

THE TRIAL COURT ERRED AS ft MATTER QF LAlil WHERE IT ADVI5ED DEFENDANT TD
WAIVE HIS 5PEEDY TRIAL BY CITING AN INAPPLICABLE 180 DAY RULE

The trial court had a legal duty at the February 4, 1983, Adjournment hearing
to toll the 180 day period before accepting a waiver. Therefore, the court
committed a clear legal.error when it incorrectly advised defendant of the law
which must govern his 180 day speedy trial waiver under the IAD. The court further
had a legal duty to sua sponte ascertain which 1.80 day rule was applicable to
defendant’s case. This misadvice of law is reviewable under MCR 6.508(D)(3)(b)(i)
(iii)* See Bracco v. Michigan Technological University, 231 Mich App 578, 588 NU2d
467 (199B)(When a trial court incorrectly chooses, interprets, or applies the law,
it commits legal error that appellate-court is bound to correct). See also Anderson
y. Bessemer City, 470TUS 564, 105 SCt 1504, 1511, B4'LEd2d 51S (1985)(When a trial
judge adopts proposal findings verbatim, the findings are those of the court and
must be reversed only if clearly erroneous).
Defendant in this case may claim ignorance of the law, where the oneous Df
knowledge of the laws was placed on the prosecutor, trial counsel and trial court.
See e.g. Utermehle v. Norment, 197 US 40, 57, 20 SCt 291, 49 LEd 655 (1905)(The
ignorance of the law does not excuse a wrong done or a right withheld; that relief
from liabilities under the law arising from a known state of facts, will be denied.
But to these general rules, there are exceptions,as where there is a mistake of
law cause by fraud, imposition on misrepresentation).
In Light v. Light, 21 PA 407 (1B53) a case involving an inducement to religuish
the right to dower, the plaintiff knew she had a right to dower but was induced
by the party who knew the law to release it. The Light Court, in setting aside
the judgment held:
"If a widow who is acquainted with all the facts, but is wholly
unaware of the law, she has a right to dower...is induced by one
who knows the law and at the same time knows her ignorance of it
to release or assign it, for totally inadvertency consideration,
she aught be relieved."
Id. at 412-13.

16.

This void waiver holds no force of law to determine a waiver of any
Speedy Trial rights, whether statutory or constitutional; simply because the
court applied the incorrect interpretation of the controlling law under the
IAD. This Court must answer the question of whether it lost jurisdiction per
the IAD, art. 111(a). A violation of the Interstate Agreement of Detainers,
Mich. Comp. Laws §700.601, results in the trial court losing jurisdiction. See
People v. Crawford, 147 Mich App 244 (1905)(emphasis added). See also City of
Riverview v. Michigan, 292 Mich App 516 (2011)(A court must be vigilant in
respecting the limits of its jurisdiction).
The presumption of correctness does not apply to questions of law or mixed
questions of law and fact. Miller v. Fenton, 474 U5 104, 111 (19B5), and, the
presumption of a State court's determination of a factual issue may be rebutted
only by clear and convincing evidence. Miller v. Cockrell, 537 US 322, 341
(2003)(A state court's determination of factual issue is presumed correct and
may be rebutted [only] by clear and convincing evidence).
C.

DEFENDANTS blAIUER IS VOID SINCE IT UAS ACCEPTED UNDER MISADVISE OF LAU

Whether costitutional due process applies and, if so, has been satisfied
are legal questions reviewed de novo. U.5.C.A. Amend. XIV; Reed v. Reed, 265
Mich App. 131, 693 NW2d 825 (2005).
Defendant contends that his Due Process of notice was violated where under
the advice and explanation of the trial court, the court presumed he was
waiving his 5peedy Trial right under a different statute and court rule. The
court assumed defendant's rights to a Speedy Trial started at the time of
arrest for purposes of the 180 day rule. The error of law occured where the
180 days applicable to defendant started on the date the prosecutor lodged
a detainer under the IAD. Had this fact been explained to defendant he would
not have waived an expired time limit since 18D days under the IAD expired
in the early part of November 1982.

17.

It is well-established law that, ,![T]o satisy the due process requirement,
notice to defendant must be of a quality that reasonably likely in all
circumstances of the case, to appraise the defendant of the pending action
and afford' an opportunity to defense”.
Here, the only defense defendant had against the trial court1s deviation from
a legal rule - error of law, was his court appointed counsel. The record shows
counsel sat silent as the trial court explained the inapplicable. Speedy Trial
rule to allow a waiver. See fidj. Hrg., 2/4/83, at p.5.
Defendant further contends that where an agreement is obtained by mistake,
a court may reform the agreement to that originally intended by parties, Dr
rescind the agreement and declare it void ab initio. See Peterson v. New York
Life Ins. Co., 54 FSupp2d B28 (E.D. Mich 2000). Futher, the waiver rule as a
procedural bar need not be applied when the interest of justice so dictaLes.
See Thomas v. Arn, 474 US 14D, 155 (1985).
Relief should be granted in this case where the waiver was accepted under
the misadvice of the trial court and trial counsel, whether by ignorance of
the controlling law, neglect or the conflict of interest due to his wife's
hospitalization - the waiver should be voided and the tolling instituted to
determine if an actual 180 day violation had in fact occurred pursuant to
MCL 780.601, art. Ill, and dismissal is warranted pursuant to the IAD.

1B.

. D.

TRIAL AMD APPELLATE COUNSELS WERE CONSTITUTIONALLY INEFFECTIVE BY THEIR
FAILURES TG KNOW AND RESEARCH THE LAWS APPLICABLE TO DEFENDANT>5 CASE
AND ASSERT THEM IN A TIMELY AND CORRECT MANNER.

STANDARD OF REVIEW: whether a person has been denied the effective assistance
of counsel is a mixed question of fact and constitutional law. People v. LeBlanc,
465 Mich 575, 579 (2002). Sixth Amendment effective assistance of claims of both
trial and appellate counsels are reviewed under the Strickland standard. See
Whiting v. Burt, 395 F3d 602, 617 (6th Cir. 2005).
Courts have not hesitated to find ineffective assistance in violation of the
Sixth Amendment when counsel fails to conduct a reasonable investigation into
one or more aspect of the case and when that failure prejudiced his or her
client. Wiggins v. Smith, 539 US 51D, 524-29 (2003).
Mr. Carroll argues that he was prejudiced by his trial and appellate counsels
failure to know and investigate the rules and laws applicable to his defenses
and their failures to properly and timely assert the substantial defenses of
violations of the IAD time limits under Articles III and IV. The records of
this case supports a violation of both the 180 day time limit under MCL 780.601,
art. Ill, and, a concurrent violation of the 120 day time limit under art. IV.
Prejudice is demonstrated where the failure to timely and properly assert these
violations of the IAD, caused defendant to be convicted on a time-barred offense
contrary to the IAD. Deficient performance is further shown where neither trial
counsels knew or properly asserted the laws pursuant to defendant1^ case as a
IAD prisoner from the State of Arkansas.
" [C]ounsel must investigate all apparently substantial defenses available
to the defendant and must assert them In a proper and timely manner,
failure to do so may warrant habeas relief. See Meeks v. Bergen, 749
F2d 322 (6th Cir. 1983). Further, if thai&is only one plausible line
of defense . . . counsel must conduct a reasonably substantial
investigation into that line of defense. Strickland, 466 US at 681.

19.

The right of an accused to present a defense has long been recognized as
"a fundamental element of due process'’. Washington v. State, 38B U5 14, 19
(1967). A defendant is therefore entitled to have his counsel prepare,
investigate, and present all substantial defenses. People v. Kelly, 186 Mich
App 524 (1990). A substantial defense is one that might have made a difference
in the outcome of the trial. Id. at 526.

In this case, defendant can show a different outcome, where if trial
counsels had research the laws of the IAD, he could have moved the court for
dismissal for failure to prosecute defendant’s case in the time limits as
applicable to bath the 180 and 120 day rules of MCL 780.601, arts. Ill, IV.
See 5trobls v. Anderson, 587 F2d 830, 836-37 (6th Cir. 1978)(citing U.§. v.
Maura, 436 US 340 (1978)).

FACTS
Mr. Carroll initially had been represented by the court-appointed counsel:
Joseph Baessler; an attorney that admittedly had been laboring under a conflict
of interest due to his wife's recent hospitalization. As admitted by counsel
to the trial court - "It would be difficult, if not impossible to be prepared
for trial.."(emphasis added) See Adj. Hrg, 2/4/83, *2-3.

Counsel futhar marie

the record that the impediment to defendant's speedy trial had been caused by
the prosecutor. (*3).

ATTORNEY BAESSLER:

I was under the impression that the Prosecutor herself had
a conflict because they had _a trial going before the Court
now, but apparently that's been cleared up.

Adj. Hrg. 2/4/83 *3.

20.

Defendant has asserted in his putative affidavit outlining ineffective
assistance of counsel grounds, that Baessler did inform him of the intent to
adjourn the trial.date due to his wife's recent hospitalization but there was
never a discussion prior to February 4, 1983 or on the date of the adjournment
a discussion about waiver of the 180 day rule, Counsel gave notice to the
court without prior advice or any explanation of the law.

See Defendant's

Affidavit as Exhibit G.
Defendant further contends that had counsel explained the laws of the 180
day rule or the 120 day rule of the IAD, he would not have waived these two
terms that had expired,

Defendant had no knowledge of the IAD until retained

counsel Kenneth Siegel, made the record that the 180 days had already expired.
See Motion Hearing, 3/21/83, as Exhibit,E.

The record supports that the

prosecutor erred where she verified by her calculations (September 1982) dates
that the 180 days had not expired. Mtn Hrg. 3/21/83 at p.10.
The record supports that both retained and court appointed counsel were
ineffective for failure to research and know the laws applicable to defenses^
applicable to defendant's case.
The Sixth Amendment to the U.S. Constitution guarantees a criminal defendant
the right to assistance of counsel in order to protect the fundamental right
to a fair trial. See U.S.C.A. Amend, VI; Strickland v. Washington, 466 US 663,
684-85 (1984). Under Michigan law ineffective assistance of counsel must be
found to have be prejudicial in order to reverse an otherwise valid conviction.
People v. Pickens, 446 Mich 293, 299 (1994).

21.

It is well established that, "[I]t is especially important that counsel
adequately investigate the case in order that at the very least he can provide
minimally competent professional representation". U.5. v. Barbour, B13 F2d 1232,
1234 (D.C. Cir. 1987). Further, "Counsels in criminal cases are charged with
responsibility of conducting appropriate investigation, both factual and legal,
to determine if matter of defense can be developed". U.S. v. Mooney, 497 F3d 397,
404 (4th Cir. 2007).
Defendant further mill assert In putative affidavit that Attorney Baessler
knem or should have known that he was under the IAD because defendant informed
upon their initial consultation In October 1982, that he was brought here to
Michigan from an Arkansas State prison. The second time defendant and counsel
discussed him being sent here from Arkansas was in November of 1982 before
the November 8, 1932 appearance in Circuit Court. Defendant was questioned
about clothing for trial and informed counsel that the only clothing he had
was prison cloths from Arkansas. Counsel advised defendant to try an obtain
appropriate clothing or a suit. Defendant informed counsel that he would have
his father bring dress clothing to the jail for trial.
Our Supreme Court in Olitkowski v. 5t. Casmir's Saving & Loan Ass'n, 302 Mich
303 (1942) held?
" A lawyer of much experience must be presumed to understand
and be familiar with well established principles of law".
Id. at 309.
The principle doctrine of statute of limitation is a well established doctrine
of law and an affirmative defense, which if proven requires dismissal. See U.S.
v. Hansel, 70 F3d 6 (2d Cir. 1995)(A time-barred defense is an absolute defense
and is not waived where counsel failed to raise a statute of limitation defense).
Counsel in this case was ineffective for failure to dispute which statute of
limitation applied to his case, but, merely stood silent while the court stated
an inapplicable staLute of limitation and waiver to defendant. See Frommert v.
Bohson Cgnstr. Co,, 219 Mich App 735 (1996)(Parties may dispute which statute
of limitation applies in a given case).

22.

Had counsel been functioning as the counsel guaranteed by the Sixth Amendment,
rather than labouring under a conflict of interest due to his wife’s illness,
he could have raised the undisputable fact that both the 180 and 120 day rules
under the IAD had expired. The facts of this case support that counsel did not
' research the laws applicable to his client's case.
If there is only one plausible line of defense . . . counsel must conduct a
"reasonably substantial investigation" into that line of defense. Strickland,
466 US at 681.
In United. States v. Williams. 615 F2d 5B5 (3rd Cir. 19B0), the Court of Appeals
found that Williams trial counsel's failure to investigate the violation of the
Interstate Agreement on Detainer Act, which would require dismissal of the
indictment, required an evidentiary hearing to resolve the ineffective assistance
of counsel claim. Again in United States Ex Rel, Holleman v- Duckworth, £5} FSupp
82 (N.D. Ill. 1986), the District Court found that trial counsel's failure to
argue that the State violated +ha Intp.rs+.at.R Agreement on Detainer constituted
ineffective assistance of counsel and established "cause" for failure to raise
the issue.
Here, the record is replete with opportunities for both retained and court
appointed counsels to argue the IAD violations, ThE record further supports
that both counsels failed to argue the correct interpretation of the laws
applicable to defendant under the IAD.
Attorney Siegel could not have had a correct understanding of the IAD, where
the record demonstrates that on March 21, 1983, counsel argciadr.that the 180
days expired because defendant had been in State custody since September 27th
or 28th. Counsel's argument failed because the XAD violation limitation was
Art. 111(a), the IAD State custody time limit was art. IV, the 120 day rule.
Counsel had no idea of the actual Speedy Trial Act violation because he had
not researched the law.

23.

^

Our Sixth Circuit Court of Appeals in Richey v. Mitchell, 395 F3d 660, 631
(6th Cir. 2005) held:
n [A]t the least, defense counsel in a criminal case
should understand the elements of the offenses with
which his client is charged and should display some
appreciation of the recognized defenses thereto...”
Thus, the failure to know and understand the laws applicable to the defenses
in this case, .and the failure to explain the applicable rules/laws to defendant,
caused him to concede': to an inapplicable waiver of his Speedy Trial rights. A
right which if explained to defendant regarding the applicable laws of the IAD,
defendant asserts he would not have waived.

Defendant’s claim of ineffective

assistance meets'the showing of a ’’reasonable probability" that absent the
error, the outcome would have been different. Strickland, 466 US at 684.
This Court can note that his trial counsels were ineffective, where both knew
defendant had an out-of-state felony conviction he had been currently serving.
Defendant offers as proof, the case register of action, where the prosecution
intended to use defendant’s prior convictions against him. See Register of
Action, at p.2 as

Exhibit H.

Attorney Siegel’s Motionto Suppress Evidence of Prior Convictions, supports
defendant’s claim of knowledge that defendant had been brought here from the
State of Arkansas. Ineffective assistance is demonstrated where it is. wellestablished law, "Defense counsel must obtain information that the State has
and will use against the defendant." Rompilla-v. Beard, 545 US 374, 387 (2005).
Defense comsel was required to move the pro^ojtnr for the file regarding defy dent's extradition,
lodging of detainer and the tHTpcnrary custody receipt under the IAD provisions. The tine gao aid
the custody of defendant, was explained to both appointed aid retained comsals.

24.

MISADVICE DF WAIVER IS "CAUSE11
The Sixth Amendment guarantees criminal defendants the right to effective
assistance of counsel. See Strickland, 466 US at 637. The touchstone for
determining whether an attorney’s performance falls below the constitutional
norm is whether counsel has brought "to bear such skill and knowledge as will
render the trial a reliable adversarial testing process." Id. 638.
The inquiry has two foci. First, a reviewing court must assess the proficiency
of counsel’s performance under prevailing norms, This evaluation demands a
fairly tolerant approach; after all, the Constitution pledges to an accused an
effective defense, not necessarily a perfect defense or a successful defense.
The second line of inquiry is needed because, in itself, dreary lawyering
does not offend the Constitution', rather, a finding that counsel failed to
meet the performance standard merely serves to advance the focus of the
Strickland inquiry to question of whether the accused suffered prejudice in
consequence of counsel’s blunders. See Id. at 692. This entails a showing of
"a reasonable probability that, but for counsel’s unprofessional errors, the
results of the proceedings would have been different." Id. 694.
Thus, it is counsel’s duty to use all legitimate means to convince the jury,
or court, that a finding for the clxGBnt , wiHL be in accord with justice; after
all,.the art of advocacy is the art of persuasion. Elliot v, ft.3. Smith
Contracting Co., 353 Mich 398 (1960). An effective attorney "must play the
role of an active advocate, rather than a mare friend of the court. Evitts v.
Lucey, 459 US 387, 394 (1935).
Defendant contends that trial counsels appointed and retained failed to advocate
his case and both provided misadvise, contrary to the constitutional norm under
the Strickland standard.

25.

In People v. Stubli, 163 Mich App 376 (1987), the Court of Appeals found
Stubli's trial counsel ineffective for failure to invoke defendant's claim of
martial privilege. On argument by the people, who contended that Stubli waived
his privilege, the Court further held, "even if we conclude, that the defendant
waived this privilege, counsel should have never advised waiver since the wife's
testimony was very damaging.1' Stubli, Id. at 3B0. (Emphasis added).
Moreover, in United States v. Hansel, 70 F3d 6 (2d Cir. 1995), the Hansel
Court found that defendant demonstrated that his indictment on two of the eight
counts were brought outside of the applicable statute of limitations and on
counsel's advice to plead to all.counts without researching the applicable statute
of limitations on these counts. Defendant contended counsel failed to inform him
that count seven and eight were time-barred at the time of advice tc plea to all
eight counts of making a false statement. The Court found that his subsequent
waiver of time-barred defense without abjection of counsel was not [voluntary].
Reversing defendant’s convictions on count seven and eight.
In Michigan. !i[U]hen a trial counsel does not make appropriate objections or
file a necessary motion he/she is not acting as counsel guaranteed by the
constitution and defendannt's rights are violated." People v. Johnson, 451 Mich 115,
121 (1996).
Defendant contends that both counsels1 inactions and misadvice to applicable
laws of the IAD was due to incompetence and ignorance of the law rather than part
of a reasonable trial strategy. This Court should further note the legal ignorance
of trial counsels, where the prospective waiver of Speedy Trial Act, did not
comport with a required "End.of Justice" determination. See Zedner v. United States,
547 US 489, 5D6 (2006)(holding "[A] defendant may not prospectively waive his rights
under the Speedy Trial ACt, such as by agreeing to a continuance"). Further, such
prospective waivers- are inconsistent with the purpose of the Act, because such
waivers do not account for public interest in speedy trials. Zedner, Id. at 500-D1.

26.

Courts of jurisdiction are required by the Speedy Trial Acts to make an
"End of Justice" determination or dismissal is required. See U.S. v. Bryant,
523 F3b 349, 361 (D.C. 2008)(finding continuance improper because trial court
failed to make expressed "end of justice” determination); See also U.S. v.
Henry, 53B E3d 300, 306 (4th Cir. 2008)(indictment dismissed on speedy trial
grounds because trial court did not expressedly find that the "end of justice"
required continuance and instead relied on defendant’s prospective waiver).
Mr. Carroll contends that he is not judicially estopped, where the defense
raised the speedy trial prosective waiver because the waiver did not comport
with any of the requirement of the Speedy Trial Act of the IAD under the 180
day rules and was a product of misadvice of counsel, traal court and the
faltee representation of the prosecutor. See e.g., Lorenzo v. Noel, 206 Mich
App 682 (1994)(holding, ”[I]t is well settled that suppression of a material
fact which a party is bound in good faith to disclose is equivalent to a false
misrepresentation"). It is apparent that at all time the Genesee County
Prosecutor was aware the defendant had been under the IAD purpose at the time
of the first and second announcements of Speedy Trial rights.
The "Plain Error" rule provides this court with the limited power to correct
an error that was not timely raised. See United States v. Plano, 507'US 725,
731-733 (1993)(An error is a [djeviation from a legal rule).
Relief in this matter should be granted where the alleged waiver of the 1 SO
day rule was surrender involuntarily under the misadvice of law by trial
counsels, the trial court and such waiver was obtained past the expired time
limitation of MCL 730.601, art. 111(a). Due process of law is violated where
an accused person is misadvised of the law by those in authority to possess
an understanding Gf the law.

27.

INEFFECTIVE ASSISTANCE OF APPELLATE COUNSEL

The purpose of the constitutional guaranty of a right to counsel is to protect
an accused from

conviction resulting from his own ignorance of his legal and

constitutional rights, and the guaranty would be nullified by a determination
that an accused's ignorant failure to claim his rights removes the protection
of the Constitution. Johnson v. Zerbst, 304 US 458, 4S5 (1938). Thus, the right
to counsel has been accorded, not for its own sake, but because of effect it
has on the ability of accused to recieva a fair trial. McElrath v. Simpson, 595
\

F3d 624 (6th Cir. 2010).
A defendant is entitled to effective assistance of appellate counsel, as
guaranteed under the Sixth and Fourteenth Amendments U.S. Constitution. See
This constitutional entitlement

Evitts v. Lucey, 469 US 3B7, 396-97 (1985).

will only be satisfied when evidence, laws and circumstances of a particular
case

viewed in their totality and at time of the representation demonstrate

that a defendant recieves "meaningful representation” from his or her appellate
counsel.
. This requires an appellate counsel to undertake a [thorough] review of the
trial record and select the most promosing issues for review. Jones v. Barnes,
463 US 745, 752, 103 5Ct 3303, 3313, 77 LEd2d 987 (1983). To overcome the
presumption of competence of appellate counsel in these circumstance, a
petitioner must show that the omitted issues were "clearly stronger" than those
counsel chose to assert. Rhea v, Jones, 622 FSupp2d 562, 592 (U.D. Mich. 200J)
Counsel’s failure to raise an issue on appeal is ineffective assistance only
if there is a reasonable probability that inclusion of issue would have changed
the result of the appeal. Rhea v. Jones, Id. at 592.
A counsel's failure to raise issues which "was obvious on the record and must
have leaped out even upon a casual reading of the transcript" is deficient
performance. Bee e.g. Mstire v. Ulainwrioht, 811 F2d 1438, 1438 (11th Cir. 1937)i.
<

28.

Defendant's trial records support that his appellate counsel overlooked the
obvious issues of : 1) the absence of the empaneling oath, 2)
trial counsel's
failure to assert the dismissals under the IAD for violations of both Article
III and IV
(1BD & 120 day time limits) and , 3) misadvice of waiver of the
Speedy trial by both trial counsels and trial court; lastly, 4) the trial
court's acceptance of Speedy Trial waiver absent an "END DF JUSTICE" determination.
Had counsel on appeal timely and properly raised these issues, a different result
was mandated by law, either a new trial on the swearing issue, or dismissal of
the entire case for violations of the IAD s articles III/IV.
Per the record defendant, had been returned to the State of Arkansas and the
appellate counsel's representation occurred by mailed correspondences, Defendant
had no ability to discern whether his appellate counsel performed effectively
or

deficiently. The State of Arkansas was under no obligation to supply defendant
with Michigan law in their limited law library.

This Court must determine the ineffectiveness claim on appellate counsel, by
first doing it's own independent examination of the trial record on the claims
of IAC of trial counsels. Then, after reviewing the trial record to determine
each claim of deficient performance and whether prejudice was established, if no
single claim amounted to prejudice, the court must assess the cumulative impact
of all deficient perfromance claims. Sse Uiggins v. Smith, 539 US 510, 534-36
(2003)(the totality of errors must be considered to properly determine prejudice).
Relief should be

granthed where both trial and appellate counsels were not
performing as effective advocates for defendant during the trial or appellate
.

terrns contrary to the Sixth Amendment s guarantees for effective assistance of
counsel on trial or appeal. Defendant's conviction should be set-aside and an
evidentiary hearing held on the ineffective assistance claims.

29.

ISSUE III
THE CUMUl-AmE EFFECT OF TRIAL ERRORS DENIED DEFENDANT DUE PROCESS hlHERF tuf
lannc RECQRD SUPPQRTS FUNDAMENTAL UNFAIRNESS AND UNRELIABLE RESULTS- AND DUE
PROCESS OF LAW WAS DENIED BY THE CUMULATIVE EFFECT GF TRIAL COUNSELS ERRORS
CONTRARY TO THE STRICKLAND STANDARD. U.S. CONST AMS V, VI, XIV.

£S'Is s,u,

standard. Strickland v. Washington, 466 US 666, 695-96 (1984).

---------------

DISCUSSION
Where the cumulative effect of errors operates to deprive a defendant of due
process of law, even if nD single error in isolation does so, a new trial is
required. U.S. Const Ams V, XIV; Const 1963, art 1, §17; Herbert v. Loisiana.
2/2 US 312, 316 (1926); People y. Ackerman. 257 Mich App 434 (2003); People v.
Miller, 211 Mich App 30, 44 (1995); People v. Malone, 1B0 Mich App 347 (1989):
People v. Skowronski, 61 Mich App 71, 77 (1975).
In 1967 the Court of Appeals published several cases focusing on the importance
□f overall record free of multiple ’'harmless errors”. In People v. Smith. 158
Mich App 220 (1967); it took notice, of a broad range of errors and reversed based
on their cumulative effect despite the facts that they were harmless in themselves.
In People v. Uallece, 160 Mich App 1 (1987), the Court discussed a rangne of
prosecutorial acts, including various improper opening and closing arguments, and
reversed based on their cumulative effect despite the absence of objection. In
People v. Rosales, 160 Mich App 304 (1987), the Court recounted a series of
prosecutorial errors, none Df which standing alone would have changed the
results,
and reversed becaused they “cause the trial to cross the lines from merely an
imperfect trial to a trial violative of due process and consistent with fairness”.

30.

The wide-ranging nature of serious errors which occurred in this case end
are described in the argument in Memorandum Df L§w in Support of Relief from
Judgment"strongly militate in favor of reversal of Defendant's conviction.
Here, none of the officers of the court - the presiding judge, prosecutor,
court-appointed .and retained counsels, acted within reasonable competence to
satisfy the Due Process Clause of both the State/Federal Constitutions. Their
combined actions, inaction and amissions are replete; where each officer either
misrepresented end/or misapplied applicable laws or as contended by Mr. Carroll
were willfully ignorant of the laws of the IAD's Speedy Trial Act. Uillfull
is demonstrated where Defendant in asserting a statute of limitation
IAD, being MCL 750.601 . Had the issue of statute of limitation been simply
researched as demanded by due process of law, defendant would have been entibled
to dismissal by either Article 111(a) or Article IV(c).
ARGUMENT
It is well-established that "where the cumulative effect of multiple errors
acts to deny the defendant a fair trial, the resulting conviction must be
reversed".

See People v. Malone, supra.

DUE PROCESS
Both the Michigan and United States Constitutions preclude the government
from depriving a person of life, liberty or property without due process of law.
U.S. Const Ams V, XIV; Const. 1963, art 1, §17. The aim of the due proces clause
is not to punish society for the misdeed of the prosecutor or court, but the
avoidance of an unfair trial to the accused. See Brady v. Maryland, 373 U5 83
(1963).

31 .

The Sixth Amendment provides that ”[i]n all criminal prosecutions, the accused
shall enjoy the right . . . to have the Assistance of COiEisel for his defense."
U.S. Const, amend VI. The Sixth Amendment right to counsel in criminal proceedings
applies to states through the Fourteenth Amendment. Gideon v. Uainuriqht, 372 US
335, 342 (1563). Thus, since the Sixth Amendment constitutionally entitles one
charged with a crime to assistance of counsel, compliance with this constitutional
mandate is an essential jurisdictional prerequisite to a [] court's authority to
deprive an accused of his life or liberty. Johnson v, Zerbst, 304 US 45S, 467 (1938).
This Court may also review the cumulative effect of all constitutionally infirm
actions by counsel(s) under the Strickland standard. See e.g., Strickland, 4SS US
at 690 (requiring consideration of counsel' s actions "in light of all the circum­
stances11); id. at 695 (noting that the question to be answered in cases such es this
is whether, "absent the errors, the factfinder would have had a reasonable doubt
respecting guilt*(emphasis added)).
Defenant moves this Court to review his case on numerous grounds that his trial
violated due process of law, where the cumulative effect of trial error deprived
him of a fundementaly fair trial or procedures, where if the applicable laws had
been complied with dismissal would have been required in this case.
The following errors are claimed in aggregate and require for defendant's
conviction to be set-aside:

a. Absence of the impaneling oath contrary to Peoola v Pribble, 72 Mich App 215
(1975); MCL 768.14;
-------------b
Ineffective assistance cf trial counsel (Baessler) uho failed to investigate
the aifirmativs defense of statute of limitations under the IAD - MCL 780.601,
articles III & IV. See Issue I & II;
c. Misadyice of the law of the trial court which mislead defendant to waive his
Speedy Trial^right - the prosepective waiver should have been explained under the
legislative intent o. MCL 780.601, art III (130 day rule); See Issue I & II*

32.

d. Ineffective-l assistance of counsel (Baessler) who announced a 1B0 day waived
contrary to MCL 780.601, art 111(a), where 180 days had actually elapsed. See
Issue I &. II; See also Defendant's Affidavit on IAC;
e. Trial counsel was ineffective where counsel (Baessler) had been laboring
under an actual "Conflict of Interest" and failed to zealously advocate hih ■,
client's case; 5ee Issue I & II; See Defendant's Affidavit on IAC;
f. Trial counsel was ineffective where counsel (Baessler) failed to file a
single pretrial motion to adocate defendant's case or defenses; See Defendant's
Affidavit on IAC; See also Case Register of Actions;
g. Trial counsel failed to move the trial court for removal under the incaoacity
rule. See People v. Coonas, 216 Mich App 721, 72B (1996)(Holding " A trial court
may remove appointed counsel for gross incompetence, physical incapacity, or
contamacious conduct");
h. Trial counsel (Siagel) was ineffective where he failed to move the trial court
for dismissal under the IftD's 130 rule and failed to know the laws applicable to
his client's defenses; Counsel's actions support he was ineffective for moving
the trial court for a prospective waiver by defendant; See Issue I &. II; Defendant's
Affidavit on IAC; MT 3/21/03, pp. 10-11;
i. Trial counsals (Baessler & Siagel) both failed to know the laws applicable
to waiver under the Speedy Trial Act, where nc "2nd of Justice" determination was
placed on the record contrary to Zednar v. !_i.S., 547 US 439, 506 (2006).
Prejudice occurs when there is a "reasonable probability that but for counsel's
unprofessional errors, the resulting proceedings would have been different". Sea
Strickland, 466 US at 694.
As a reviewing court, this Court must ask itself, if defendant was deprived of
a reasonable shot of acquittal. See Avery v. Prslisnik, 54S F3d 434, 439 (6th Cir.
2003)(Holding, "hJe do not ask whether [the defendant] was« innocent, but, rather,
ha was deprived [of] a reasonable shot of ieqdittal").
Here, the presumption of corectness is overcome where the accuracy of counsel’s
legal advice is .not supported by the record regarding the waiver of his IAD claim,
and there is clear and convincing evidence that there was a defect in the fact­
finding process regarding the 130 day waiver of the IAD.
Relief should be granted under the cumulative effect of errors rule under the
State and Federal standards.

33.

CONCLUSION

In Conclusion, Defendant’s convictions and sentence should be set-aside and
a new trial order by the failure to swear the jury with a recorded impaneling
oath contrary to the law in effect at the time of his trial and appeal.
Alternatively, this Court may look to the number of trial errors and set-aside
die conviction/sentence as a due process violation under Michigan law. See People
y. Skouronski, 51 Mich Add 71, 77 (1975), or, under the Strickland standard'citing
the cumulative effect of trial counsel's errors. 5trickland3 465 US at 630, 695-95;
See also Kvles v. Idhitley , 514 LIS 419, 434 (1995) (considering cumulative effect
ofoe^rars in another context in which the Strickland standard for prejudice (though)
ool

the Strickland test for ineffective assistance had been applied).

Under the Federal standard, the analysis must not focus solev on outcome
determination, but also taka into prominent consideration ’’whether the resulting
proceedings were fundamentally unfair or unreliable." See Lockhart v. Fretwsll,
506 US 354, 113 SCt B3B, 342, 122 LEd2d 130 (1933).

This Court should look cautiously at Attorney's

announcement of being under
the IAD ior purpose of an 130 day dismissal but reliance on the wrong dates,
which was contrary to MCL 730.601, art 111(a), and conceding to the prosecution
by use of the date only applicable of article IV(c) of the IAD.

A case on point is Henry v, Poole. 409 F3d 48, 64 (2d Cir. 2005)(Holding, but
for counsel's elicitation of an alibi for the wrong date and relianca on that
alibi, reasonable probability of a different trial result),
the correct date of May 7,

Had counsel used
rather than September of 1932, defendant would

have had a "reasonable probability of a different trial result or alternatively,
counsel would have been able to assert a 120 day violation under the IAD under
article..IV, each of these dates had expired according to the calculations of
defendant.

34.

RELIEF REQUEST

For these reasons set forth, Defendant Michael A. Carrol ask that this Court
grant relief from judgment and set aside or modify the judgment in this case,
or, alternatively, order a Ginthar hearing pursuant to MCR 5.508(C) in accord
with the additionally filed Motion for Evidentiary hearing - People v. Ginther,
390 Mich 436 (1973), to make a testimonial record on both trial and appellate
counsels, or relief this Court may deem appropriate to avoid a Miscarriage of
Justice.

Respectfully submitted,

Date:

/s/
Michael A. Carroll #149733
Defendant In Pro Per
Saginaw Correctional Facility
5o25 Pierce Road - M DOC
Freeland, MI 48623

/2u1 7

PROOF OF SERVICE
„
Michael A. Carroll, Dependant in this matter declare that I mailed the
Toregoing Motion for Relief frGrn Judgment w/eccompanying Memorandum of Law in
Support^/exhibits ■to "ALL PARTIES OF INTEREST": 1 Originel end 1 Copy of MRS
MT’/S^n«CS
CountV Cler'<> Attn: John 0. Gleason, 900 S. Saginaw St., Flint,
M_ 4850l ano (1) Copy of MRJ to: Genesee County Court Prosecutor, Attn David S.
Leyton Po50S6, 10u Courthouse, Flint, MI 48502, by handing said documents to an
Employee of the MD0C w/accompsnying LEGAL EXPEDITED MAIL Form for affixing proper
U.S. First Class Postage and delivery, on this
day of
, 2017.
Respectfully submitted,
Date:

/

/2Q17

/s/
Michael A. Carroll #149733
Defendant In Pro Per

35.

Additional material
from this filing is
available in the
Clerk's Office.

